LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 9, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

SNH SE ASHLEY RIVER TENANT, LLC, ET AL. V. THAYER W. ARREDONDO,
AS PERSONAL REPRESENTATIVE OF THE ESTATE OF HUBERT WHALEY,
DECEASED

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on August 9,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
C. Caleb Connor
Kenneth L. Connor
Connor & Connor, LLC
302 Park Avenue SE
Aiken, South Carolina 29801
803-938-4730
caleb@theconnorfirm.com
ken@theconnorfirm.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 9h day of August 2021.

